                         U.S. Department of Agriculture

                            Office of Inspector General
                                      Southeast Region




                Audit Report

  Cooperative State Research, Education, and
Extension Service – 1994 Land-Grant Institutions




                                 Report No. 13011-3-At
                                         August 2007
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                       Washington, D.C. 20250




August 17, 2007

REPLY TO
ATTN OF:       13011-3-At

TO:            Colien Hefferan
               Administrator
               Cooperative State Research, Education, and Extension Service

ATTN:          Ellen Danus
               Chief
               Policy, Oversight, and Funds Management Branch
               Office of Extramural Programs

FROM:          Robert W. Young /s/
               Assistant Inspector General
                 for Audit

SUBJECT:       Review of 1994 Land-Grant Institutions


This report presents the results of the subject audit. Your response to the official draft report,
dated August 13, 2007, is included as exhibit C, with excerpts and the Office of Inspector
General’s (OIG) position incorporated into the Findings and Recommendations sections of the
report.

Based on your response, we have reach management decision on Recommendations 1, 2, 3, 4,
and 5. Additional information as specified in the OIG Position sections is needed before we can
accept management decisions for Recommendations 6, 7, and 8.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementation of the
recommendation. Please note that the regulation requires that management decision to be
reached on all recommendations within a maximum of 6 months from report issuance, and final
action to be taken within 1 year of each management decision.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
audit.
Executive Summary
Cooperative State Research, Education, and Extension Service – 1994 Land-Grant
Institutions (Audit Report No. 13011-3-At)

Results in Brief                      The Cooperative State Research, Education, and Extension Service
                                      (CSREES) provides grants and endowment funds to the 1994 Land-Grant
                                      Institutions (1994 LGI). The funds are used to conduct agricultural research,
                                      education and extension activities in order to improve the quality of
                                      education to Native American students, especially those students who are
                                      geographically isolated or who might otherwise find the cost of higher
                                      education prohibitive. The Office of Inspector General conducted this audit to
                                      evaluate CSREES’ controls over these funds and to verify that 1994 LGIs
                                      were using the funds in accordance with their agreements.

                                      Thirty-three 1994 LGIs received 325 grants totaling $24 million from fiscal
                                      year (FY) 2003 through FY 2005. We reviewed grant agreements, planning
                                      documents, performance reports, and financial reports for all 33 1994 LGIs.
                                      We verified expenditures at 2 1994 LGIs that received 18 grants and
                                      endowment funds totaling $1.5 million from FY 2003 through FY 2005.

                                      We did not find any material noncompliance with grant provisions by the two
                                      1994 LGIs we visited, however, we found that CSREES needs to strengthen
                                      its Federal grant management controls 1 in the following areas.

                                      CSREES’ Onsite Reviews Could Be Improved

                                      CSREES’ monitoring reviews of 1994 LGIs could be improved by
                                      prioritizing onsite visits to institutions, assessing program accomplishments,
                                      verifying expenses during onsite reviews, and establishing a followup process
                                      to ensure observed deficiencies are corrected. At the time of our fieldwork,
                                      CSREES had no documented procedures for conducting risk assessments of
                                      the 1994 LGI grant programs to determine potential vulnerabilities or
                                      establish procedures for performing reviews. Because of its limited resources,
                                      CSREES needs to expedite developing and implementing such risk
                                      assessment procedures. An effective review process will provide CSREES
                                      assurance that grant funds are used to fully accomplish program objectives.

                                      CSREES Had Not Received and Reviewed 1994 LGIs’ Required Reports

                                      We found that CSREES was not receiving and reviewing all reports that it
                                      required 1994 LGIs to submit—including Office of Management and Budget
                                      (OMB) Circular A-133 Single Audit reports, plans of work, annual program
                                      performance reports, and financial status reports. During our fieldwork,

1
    7 Code of Federal Regulations 3015.94 dated January 1, 2005.

USDA/OIG-A/13011-3-At                                                                                        Page i
                                      CSREES did not have procedures for tracking the receipt of required reports,
                                      for reviewing reports that were submitted, and for following up with
                                      1994 LGIs who failed to submit their reports. CSREES acknowledged that its
                                      backlog of work and staffing constraints may have contributed to the
                                      problem. CSREES had also not re-assigned staff to perform monitoring tasks.
                                      CSREES needs to ensure that 1994 LGIs are submitting the required reports.

                                      CSREES Had Not Timely Closed Out Expired 1994 LGIs Grant Agreements

                                      Of the 562 1994 LGI grants totaling over $30 million dollars which expired
                                      as of October 1, 2004, we found that 33 still had unliquidated balances
                                      totaling $874,986—after their 90-day deobligation deadline had elapsed
                                      (see exhibit B). This occurred because CSREES, at the time of our fieldwork,
                                      did not have documented procedures for closing out grants when they
                                      expired. Unless grants are closed out and funds deobligated, funds remaining
                                      after the grant’s expiration are vulnerable to abuse. We found one instance
                                      where a 1994 LGI improperly drew down $6,680 after its grant period had
                                      expired.

                                      Two 1994 LGIs Expended Grant Funds for Questionable Purposes

                                      During our visit to two 1994 LGIs, 2 we found that they used grant funds for
                                      ineligible expenses. We reviewed the 18 FY 2003 through FY 2005 grants
                                      and endowment funds issued to these 2 1994 LGIs totaling $1.5 million; they
                                      spent funds from 3 grant awards on ineligible or unsupported expenses
                                      totaling $76,359. These ineligible expenses included:

                                            •    $45,790 used for purposes other than those stated in the grant
                                                 agreement,
                                            •    $6,680 drawn down after the grant project had expired,
                                            •    $11,509 in salary expenses incorrectly charged to grant projects, and
                                            •    $12,378 in questionable equipment expenses.

                                      Overall, we did not find any material noncompliance with grant provisions by
                                      the two 1994 LGIs we visited; however, CSREES needs to strengthen its
                                      grant monitoring as required by Federal grant regulations.

Recommendations
in Brief                              We are recommending that CSREES:

                                            •    Improve and implement risk assessment procedures and, based on the
                                                 results, prioritize onsite reviews of 1994 LGIs.



2
    Sinte Gleska University, Rosebud, South Dakota and Fond du Lac Tribal Community College, Cloquet, Minnesota.

USDA/OIG-A/13011-3-At                                                                                              Page ii
                        •   Improve and implement procedures for including the review of
                            grants program accomplishments and expenses during onsite visits
                            and require documentation of the review.

                        •   Improve and implement procedures for followup and resolution of
                            review findings and recommendations.

                        •   Improve and implement procedures for tracking the receipt of all
                            required reports and monitoring them once they are received.

                        •   Develop and implement procedures to ensure that all grants are
                            periodically checked for unexpended balances and closed out 90 days
                            after the grant has expired, and review the 33 expired grants with
                            obligated balances totaling $874,986 and return excess funds to the
                            U.S. Treasury.

                        •   Recover from the two 1994 LGIs $76,359 in questioned or
                            unsupported costs.

Agency Response    In its August 9, 2007, written response to the official draft report, CSREES
                   officials agreed with all the recommendations in the report. We have
                   incorporated applicable portions of CSREES’ response, along with our
                   position in the Findings and Recommendations sections of the report.
                   CSREES’ response to the official draft report is included in its entirety as
                   exhibit C of the audit report.

OIG Position       We concurred with the corrective actions proposed by CSREES, although
                   additional information as outlined in the OIG Position sections will be needed
                   to reach management decision on Recommendations 6, 7, and
                   8. CSREES needs to provide us with the results of its review of the
                   33 expired grants with $874,986 in unliquidated balances and the amount of
                   funds returned to the U.S. Treasury. Also, CSREES needs to provide us with
                   a copy of the bills for collection of the $73,359 owed to it by the two
                   1994 LGIs and support that the amounts have been entered as a receivable on
                   the agency’s accounting records.




USDA/OIG-A/13011-3-At                                                                   Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Table of Contents ...................................................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1 – CSREES’ Monitoring and Oversight Over Funds Provided to 1994 LGIs .............. 3

        Finding 1  Effectiveness of CSREES’ Reviews Could be Improved ....................................... 3
         Recommendation 1 ....................................................................................................................... 5
         Recommendation 2 ....................................................................................................................... 6
         Recommendation 3 ....................................................................................................................... 6
        Finding 2  CSREES Needs to Improve How It Tracks 1994 LGIs’ Required Reports............ 6
         Recommendation 4 ....................................................................................................................... 9
        Finding 3  CSREES Needs to Improve How It Closes Out Grant Agreements ....................... 9
         Recommendation 5 ..................................................................................................................... 10
         Recommendation 6 ..................................................................................................................... 11

    Section 2 – 1994 LGI Grant Expenditures..................................................................................... 12

        Finding 4  Two 1994 LGIs Claimed Ineligible Expenses ...................................................... 12
         Recommendation 7 ..................................................................................................................... 13
         Recommendation 8 ..................................................................................................................... 14

Scope and Methodology........................................................................................................................ 15

Exhibit A – Summary of Monetary Results ....................................................................................... 17
Exhibit B – 1994 LGI Expired Grants With Unliquidated Balances............................................... 18
Exhibit C – Agency Response .............................................................................................................. 19




USDA/OIG-A/13011-3-At                                                                                                                      Page iv
Background and Objectives
Background                               Authorized on October 20, 1994, the 1994 Land-Grant Program established
                                         29 colleges as “1994 Land-Grant Institutions” (1994 LGI) and provided
                                         grants to these 1994 LGIs serving Native Americans. 3 These 1994 LGIs
                                         educate students who may be isolated geographically and who may otherwise
                                         find the cost of higher education prohibitive. 4 By serving the cultural needs
                                         of this student body, 1994 LGIs aim to better serve local Native American
                                         populations, particularly those on reservations.

                                         Four programs are available to 1994 LGIs: the Tribal College Endowment
                                         Fund Program; the Tribal College Educational Equity Grant Program; the
                                         Tribal College Research Grant Program; and the Tribal College Extension
                                         Service Grant Program. These programs are intended to afford these
                                         institutions the means to conduct research, education, and outreach activities
                                         to improve conditions in Native American communities.

                                         A Tribal College Endowment Fund was established and designed to
                                         strengthen these colleges through increased capacity of teaching programs in
                                         food and agriculture. Interest accruing from the endowment fund is split
                                         among 1994 LGIs (40 percent of accrued interest is divided equally among
                                         the 1994 LGIs, while 60 percent is distributed to 1994 LGIs based on student
                                         enrollment). As part of its oversight and accountability responsibilities,
                                         Cooperative State Research, Education, and Extension Service (CSREES)
                                         requires each college, once notified of its annual distribution, to submit a
                                         planning document detailing how its share of the interest on the endowment
                                         funds will be used. Proper uses for these funds include: (1) development of
                                         curricula and materials, (2) faculty development, (3) experiential learning
                                         programs, (4) instruction delivery systems, (5) teaching equipment and
                                         instrumentation, and (6) student recruitment and retention. Beginning in
                                         fiscal year (FY) 2002, funds could also be used for facility construction and
                                         maintenance.

                                         The Tribal College Education Equity Grant Program is designed to promote
                                         and strengthen higher education in the food and agricultural sciences.
                                         1994 LGIs must submit an application to receive a grant, but each approved
                                         grant receives the same amount. For FY 2005, each grant totaled $67,637.

                                         The Tribal College Research Grant Program makes funds available to
                                         1994 LGIs to perform research activities in their communities and is intended



3
    Public Law 103-382, as an amendment to the First Morrill Act, dated July 2, 1862.
4
    Public Law 103-382 initially established 29 colleges as “1994 Tribal Land-Grant Institutions,” but 4 other colleges were later added, resulting in a total
     of 33 eligible 1994 LGIs.

USDA/OIG-A/13011-3-At                                                                                                                                Page 1
                   to assist these institutions in conducting agricultural research addressing high
                   priority concerns of tribal or national significance.

                   The Tribal College Extension Service Grant Program is designed to fund
                   community outreach programs in (1) agriculture; (2) community resource and
                   economic development; (3) family development and resource management;
                   (4) 4-H and youth development; (5) leadership and volunteer development;
                   (6) natural resources and environmental management; and (7) nutrition, diet,
                   and health.

                   In FY 2005, Congress appropriated $1.2 billion for CSREES, of which
                   $20.64 million was authorized for 1994 LGIs. Of the $20.64 million,
                   CSREES allocated in the following manner: $2.23 million for the Tribal
                   College Educational Equity Grant Program, $1.08 million to the Tribal
                   College Research Grant Program, $3.25 million to the Tribal College
                   Extension Service Grant Program, $11.9 million to the Tribal College
                   Endowment Fund, and interest payments of $2.18 million to 1994 LGIs.

                   For FY 2006, Congress has appropriated $1.17 billion for CSREES, of which
                   $23.1 million was authorized for 1994 LGIs.

Objectives         The objectives of this audit were to (1) assess CSREES’ management
                   controls over funds provided to 1994 LGIs and (2) determine if funds were
                   expended in accordance with laws, regulations, and grant agreements or
                   planning documents submitted to CSREES.




USDA/OIG-A/13011-3-At                                                                      Page 2
Findings and Recommendations
Section 1 – CSREES’ Monitoring and Oversight Over Funds Provided to 1994 LGIs

                                      We did not find material deficiencies in our review of 1994 LGIs’
                                      compliance with their grant agreements or planning documents. However,
                                      CSREES needs to improve its management controls over 1994 LGI funds in
                                      the following areas:

                                            •     CSREES reviews of 1994 LGIs could be improved by documenting
                                                  selection criteria for prioritizing onsite visits and assessing
                                                  1994 LGIs’ program accomplishments and verifying expenses.

                                            •     CSREES could not demonstrate that they received reports they
                                                  required 1994 LGIs to submit under the terms of their agreements,
                                                  nor that they reviewed those they did receive. Moreover, the agency
                                                  did not followup with 1994 LGIs when their reports were late or
                                                  missing.

                                            •     CSREES had not deobligated 33 of the 562 grants that expired prior
                                                  to October 1, 2004. These 33 grants had unliquidated balances
                                                  totaling nearly $874,986.



Finding 1                             Effectiveness of CSREES’ Reviews Could be Improved

                                      CSREES’ reviews of 1994 LGIs could be improved by prioritizing onsite
                                      visits to institutions, better assessing program accomplishments, verifying
                                      expenses during onsite reviews, and establishing a followup process to ensure
                                      observed deficiencies are corrected. At the time of fieldwork, CSREES did
                                      not conduct a documented risk assessment of the 1994 LGI programs to
                                      determine potential vulnerabilities or establish documented procedures for
                                      performing reviews. In addition, the only employee who had performed
                                      comprehensive and detailed onsite financial and performance reviews of
                                      1994 LGIs left the agency. An effective review process will provide CSREES
                                      assurance that funds are used to fully accomplish program objectives. 5

                                      Federal regulations require agencies awarding grants to make site visits as
                                      frequently as practicable to review program accomplishments, review control
                                      systems, and provide technical assistance. 6



5
    $24 million in grant funds were awarded to the 33 1994 LGIs from FY 2003 through FY 2005.
6
    7 Code of Federal Regulations 3015.94, dated January 1, 2005.

USDA/OIG-A/13011-3-At                                                                                        Page 3
                                       CSREES Does Not Assess Risk in Prioritizing Its Monitoring Visits to
                                       1994 LGIs

                                       CSREES performed onsite reviews at 10 of 33 1994 LGIs from
                                       April 2003 through January 2005. When we asked CSREES officials why
                                       they selected these 10 1994 LGIs, they explained the selections were based
                                       on the locations of the 1994 LGIs to reasonable accommodation, travel costs,
                                       and travel time. CSREES should improve its monitoring process by
                                       performing a documented risk assessment to determine the 1994 LGIs that
                                       pose the greatest risk for program weakness (i.e., not submitting performance
                                       accomplishment reports) or those that need immediate attention due to
                                       financial hardship (i.e., received an adverse opinion on their financial
                                       statements). In addition, CSREES should use the results of the risk
                                       assessment to prioritize its visits to 1994 LGIs.

                                       Without having consistent, documented risk assessment procedures for
                                       determining onsite reviews, CSREES may not visit 1994 LGIs that may be
                                       vulnerable to program abuse. For example, one institution7 that CSREES had
                                       scheduled for an onsite visit during April 2006 went bankrupt in April 2005.
                                       This institution had an adverse opinion on its FYs 2001 and
                                       2002 financial statements (issued on October 21, 2005), 8 which should have
                                       raised CSREES’ concerns.

                                       Onsite Reviews Were Not Detailed

                                       CSREES’ onsite reviews did not include a documented assessment of
                                       program accomplishments or a documented review of invoices and
                                       accounting and payroll records to verify the accuracy and allowability of
                                       expenses made and reported by the 1994 LGIs.

                                       According to CSREES officials, their reviews were primarily programmatic
                                       in nature and for “outreach” purposes to discuss extension, higher education,
                                       and research activities. The reviews did not include a documented evaluation
                                       of the adequacy of program expenses and program accomplishments.

                                       When we asked CSREES officials during our fieldwork why these reviews
                                       lacked detailed analysis, they stated that they did not have the staff needed to
                                       both perform and document the weeklong reviews necessary to assess
                                       1994 LGIs’ program performance and financial controls. The officials further
                                       explained that the employee who had performed at least two detailed reviews
                                       left the agency and had not been replaced. However, CSREES officials
                                       provided comments for the exit discussion that they had replaced the departed
                                       employee in October 2005 and that the Office of Extramural Programs has

7
    Si Tanka University, Eagle Butte, South Dakota.
8
    The auditor’s opinion on the FY 2001 financial statements was dated October 23, 2003.

USDA/OIG-A/13011-3-At                                                                                          Page 4
                   sufficient staff and expertise to perform these reviews. CSREES did not
                   provide evidence of any reviews performed by this official since their hiring.

                   CSREES Lacked Procedures to Followup on Issues Identified by Onsite
                   Reviews

                   Despite the fact that CSREES’ onsite reviews did not always include a
                   documented assessment of program accomplishments or financial reviews,
                   the 10 site reviews that CSREES’ performed did identify outreach and
                   program deficiencies that needed improvements such as the need to (1) better
                   communicate the effects of its grant program, (2) better coordinate between
                   several overlapping programs, and (3) more accurately allocate salary costs to
                   grants. CSREES officials state that they prepared reports for each site review,
                   but at the time of our fieldwork, CSREES was only able to provide 6 reports,
                   identifying a total of 17 issues. For the 10 site reviews, when CSREES
                   identified a problem and recommended a solution from its reviews, it asked
                   the 1994 LGIs to submit a corrective action plan. However, we found that
                   1994 LGIs did not submit corrective action plans for the deficiencies stated in
                   the six reports and that CSREES could not demonstrate to the Office of
                   Inspector General (OIG) a tracking system to followup on the deficiencies
                   reported or to verify that the deficiencies were corrected.

                   When we asked CSREES officials why they had not required 1994 LGIs to
                   submit corrective action plans, they explained that they had not consistently
                   required 1994 LGIs to submit corrective action plans. CSREES needs to
                   fulfill its grant monitoring responsibilities by verifying that 1994 LGIs have
                   resolved any deficiencies identified in its reviews.

Recommendation 1

                   Improve and implement procedures for including the review of grants
                   program accomplishments and expenses during onsite visits and require
                   documentation of the review.

Agency Response    In its August 13, 2007, response, CSREES stated the following.

                        CSREES concurs. CSREES will improve and implement
                        procedures for including the review of grants program
                        accomplishments and expenses during onsite visits and require
                        documentation of the review. CSREES will revise and implement
                        these procedures for 1994 LGIs by December 31, 2007, and
                        training will be provided to Agency staff by June 30, 2008.

OIG Position       We concur with CSREES’ management decision for this recommendation.



USDA/OIG-A/13011-3-At                                                                     Page 5
Recommendation 2

                                         Improve and implement procedures requiring (1) 1994 LGIs to submit
                                         corrective action plans to address identified deficiencies, (2) CSREES to
                                         track resolution of identified deficiencies, and (3) CSREES to perform
                                         followup reviews as necessary.

Agency Response                          In its August 13, 2007, response, CSREES stated the following.

                                               CSREES concurs. CSREES will improve and implement
                                               procedures requiring (1) 1994 LGIs to submit corrective action
                                               plans to address identified deficiencies; (2) CSREES to track
                                               resolution of identified deficiencies; and (3) CSREES to perform
                                               followup reviews as necessary. These procedures will be
                                               incorporated in the revised On-site Review Guidelines which will
                                               be completed and implemented by December 31, 2007, and
                                               training will be provided to Agency staff by June 30, 2008.

OIG Position                             We concur with CSREES’ management decision for this recommendation.

Recommendation 3

                                         Improve and implement procedures for performing onsite reviews of grants
                                         program accomplishments and expenses.

Agency Response                          In its August 13, 2007, response, CSREES stated the following.

                                               CSREES concurs. CSREES will revise and implement
                                               procedures for performing onsite reviews of grants program
                                               accomplishments and expenses by December 31, 2007. Training
                                               on new procedures will be provided to Agency staff by June 30,
                                               2008.

OIG Position                             We concur with CSREES’ management decision for this recommendation.



Finding 2                                CSREES Needs to Improve How It Tracks 1994 LGIs’ Required
                                         Reports

                                         We found that CSREES was not receiving and reviewing all of the reports
                                         that it required 1994 LGIs to submit—including Office of Management and
                                         Budget (OMB) Circular A-133 Single Audit 9 reports, plans of work, annual
                                         program performance reports, and financial status reports. This occurred

9
    Hereinafter referred to as Single Audit.

USDA/OIG-A/13011-3-At                                                                                         Page 6
                                    because CSREES did not, at the time of our fieldwork, have documented
                                    procedures for tracking the receipt of required reports, for reviewing reports
                                    that were submitted, and for following up with 1994 LGIs who failed to
                                    submit their reports. CSREES also attributed backlog of work and staffing
                                    constraints as contributing to the problem.

                                    The Federal Managers’ Financial Integrity Act of 1982 requires agencies to
                                    monitor grant recipients to ensure that costs are in compliance with
                                    applicable laws and regulations. 10 In fulfillment of this requirement,
                                    CSREES’ grant terms and conditions require 1994 LGIs to submit several
                                    sorts of reports—Single Audit reports, plans of work, and performance and
                                    financial reports.

                                    Without a documented system for assuring reports are received and reviewed,
                                    1994 LGIs may not receive the guidance they require to effectively utilize
                                    awards as required by grant agreements.

                                    Single Audit Reports

                                    We found that CSREES since FY 2004 was not receiving and, therefore, not
                                    reviewing any required Single Audit reports for the 33 1994 LGIs. This
                                    occurred because CSREES did not have documented procedures for tracking
                                    the receipt of the reports or for reviewing the reports they received. CSREES
                                    needs to improve its grant monitoring requirements by following up to ensure
                                    grantees submit Single Audit reports.

                                    OMB Circular A-133 requires institutions receiving grants to prepare and
                                    submit a Single Audit report if they receive over $500,000 in Federal funds.
                                    This report must include an auditor’s opinion, a report on internal controls,
                                    and a report on compliance with laws, regulations, and grant agreements. 11
                                    Single Audits are used to determine whether unallowable or questionable
                                    costs have been charged to the program audited, whether 1994 LGIs are
                                    being run effectively and efficiently, and whether 1994 LGIs are in
                                    compliance with all applicable laws and regulations. OMB Circular
                                    A-133 also requires the institutions to submit Single Audits information to the
                                    OMB-designated Federal Audit Clearinghouse in Jeffersonville, Indiana.

                                    All 33 of the 1994 LGIs each received combined Federal grant funds in
                                    excess of $500,000 and, therefore, were required to submit a Single Audit
                                    report. 12 CSREES has not received any of the reports starting from FY 2004.
                                    Prior to FY 2004, CSREES had assigned an employee to followup on the
                                    reports but the employee left the agency and this duty was not reassigned. We

10
   Public Law 97-255, dated September 8, 1982.
11
   OMB Circular A-133: “Audits of States, Local Governments, and Non-Profit Organizations,” dated June 24, 1997.
12
   Grant award amounts were obtained from the information contained in the Federal Audit Clearinghouse. The 1994 LGIs received the additional funding
   from the U.S. Department of Education and the U.S. Department of the Interior.

USDA/OIG-A/13011-3-At                                                                                                                     Page 7
                   reviewed seven Single Audit reports submitted to CSREES by three
                   1994 LGIs prior to FY 2004. Although the reports disclosed reportable
                   conditions for Federal grants, none of the issues was related to the
                   Department of Agriculture or the 1994 LGI grant program.

                   As of May 2006, CSREES had assigned someone to begin reviewing Single
                   Audit reports. CSREES also plans on hiring an additional staff member
                   whose primary responsibility will be the tracking of Single Audit reports and
                   resolution of audit findings. In comments provided to OIG for the exit
                   discussion for this report, CSREES advised that it now has documented
                   procedures for handling these reports.

                   Performance Reports for Equity and Research Grants

                   At the time of our fieldwork, CSREES had not developed documented
                   procedures to track performance reports or for following up with 1994 LGIs
                   to submit such reports. CSREES officials were unsure of how many reports
                   they had received or how many were owed to them by 1994 LGIs. We found
                   that CSREES had not received all performance reports for 1994 LGI equity
                   and research grants. For example, we requested research and equity
                   performance reports for three 1994 LGIs for FYs 2003 and 2004. CSREES
                   officials disclosed that only 4 of 14 (28.5 percent) required performance
                   reports were on hand. The grant terms and conditions require that annual
                   performance reports should provide a concise project overview, a summary
                   of the progress toward project objectives, and identify current problems or
                   unusual developments pertinent to the ongoing project.

                   CSREES did not track the submission of annual performance or final
                   technical reports for equity and research grants. However, CSREES officials
                   stated that performance reports were tracked and analyzed for the tribal
                   extension grants since CSREES had appointed a national program leader over
                   the program. The national program leader also followed up with the
                   1994 LGIs if they did not submit the required reports. There was no national
                   program leader assigned for the equity and research grant programs at the
                   time of our fieldwork.

                   CSREES officials told us after our fieldwork ended, that they now track
                   performance reports and that the Awards Management Branch, prior to
                   making a new award to a 1994 LGI, checks to see if any prior report is
                   delinquent. CSREES notes that this check will be formalized on its award fact
                   sheet, CSREES-2009.

                   Financial Reports

                   CSREES had not received Standard Form (SF) 269s for equity, endowment,
                   and research grants for 12 of the 33 1994 LGIs since FY 2004. All of the
USDA/OIG-A/13011-3-At                                                                   Page 8
                   SF-269s, “Financial Status Report,” were not being submitted by the
                   1994 LGIs, and CSREES did not followup to find out why reports were not
                   being forwarded. In addition, CSREES did not review and analyze the reports
                   it received from the 1994 LGIs. The SF-269 report shows the financial
                   progress of the grants, provides data by grant budget period, and contains
                   information on total outlays and unobligated balances. CSREES requires
                   1994 LGIs to submit this financial report annually.

                   Although CSREES could locate some of these reports, it had no record of
                   having received many of them. This occurred because CSREES lacked
                   documented controls for tracking the receipt of all required reports and for
                   following up with grantees that did not submit their reports. CSREES officials
                   stated they had developed procedures and a tracking system but, due to other
                   priorities, they did not aggressively follow up when financial reports were not
                   received.

                   We concluded that CSREES needs to improve its grant monitoring
                   responsibilities for tracking the receipt of all required reports, reviewing them,
                   and following up with 1994 LGIs that do not submit their reports on time.

Recommendation 4

                   Improve and implement documented procedures for tracking the receipt of all
                   required reports and for following up when reports are not received.
                   Establish a formal review process of the reports.

Agency Response    In its August 13, 2007, response, CSREES stated the following.

                        CSREES concurs. CSREES will improve and implement
                        documented procedures for tracking the receipt of all required
                        reports and for following up when reports are not received. These
                        procedures will require a formal review of the reports. CSREES
                        will revise and implement these procedures by March 31, 2008.

OIG Position       We concur with CSREES’ management decision for this recommendation.



Finding 3          CSREES Needs to Improve How It Closes Out Grant Agreements

                   Of the 562 1994 LGI grants totaling $30,375,073 that expired as of
                   October 1, 2004, we found that 33 still had unliquidated balances totaling
                   $874,986—after their 90-day deobligation deadline had elapsed (see exhibit
                   B). This occurred because CSREES officials stated that they had a backlog of
                   work and staffing constraints. Furthermore, CSREES officials stated that they
                   had not documented their procedures for reviewing and closing out unused
USDA/OIG-A/13011-3-At                                                                        Page 9
                                      funds for expired grants. Unless grants are closed out and funds deobligated,
                                      funds remaining after the grant’s expiration are vulnerable to abuse. We
                                      found one instance at one of the two 1994 LGIs we visited where the
                                      1994 LGI improperly drew down $6,680 after its grant period had expired.

                                      OMB Circular A-110 requires that unless the agency grants an extension, the
                                      awarding agency shall close out the grant and all funds should be deobligated
                                      and returned to the U.S. Treasury within 90 calendar days of expiration.13

                                      In addition to what was explained above, some CSREES officials incorrectly
                                      believed that grants could not be closed out for 5 years and intended to start
                                      reviewing grants that expired in FY 2001 sometime in FY 2007.

                                      If grants are not closed out in a timely fashion and excess funds are not
                                      deobligated within 90 days, then those funds can be vulnerable to abuse. We
                                      informed a 1994 LGI during our fieldwork that we would be recommending
                                      the deobligation of $6,680. The 1994 LGI subsequently drew down this
                                      amount even though the project had been completed (see Finding
                                      4 for a fuller discussion of this improper drawdown). CSREES has less
                                      control over how funds are being used for the purposes established in the
                                      grant agreement.

                                      We concluded that CSREES should implement procedures for closing out
                                      grants and deobligating excess funds within 90 days after the grant has been
                                      closed out.

Recommendation 5

                                      Implement procedures, including a tracking system, to ensure that all grants
                                      are periodically checked for unexpended balances and closed out 90 days
                                      after the grant has expired.

Agency Response                       In its August 13, 2007, response, CSREES stated the following.

                                            CSREES concurs. CSREES will revise and implement improved
                                            procedures to include a tracking system to periodically check for
                                            grants with unexpected balances (i.e., beyond 90 days of the
                                            termination date). These procedures will be revised and
                                            implemented by December 31, 2007.

OIG Position                          We concur with CSREES’ management decision for this recommendation.




13
     OMB Circular A-110, subpart D, dated September 30, 1999.

USDA/OIG-A/13011-3-At                                                                                      Page 10
Recommendation 6

                   Review the 33 expired grants with $874,986 unliquidated balances, close out
                   balances as appropriate, and return the remaining funds to the U.S. Treasury.

Agency Response    In its August 13, 2007, response, CSREES stated the following.

                        CSREES concurs. CSREES will complete the review of the
                        expired grants with unliquidated balances and will return
                        remaining funds to the U.S. Treasury by September 30, 2007.

OIG Position       We agree with CSREES’ corrective actions to review the expired grants with
                   unliquidated balances and return the remaining funds to the U.S. Treasury.
                   However, to reach management decision, CSREES needs to provide us with
                   the results of their review and the amount of funds returned to the U.S.
                   Treasury.




USDA/OIG-A/13011-3-At                                                                   Page 11
Section 2 – 1994 LGI Grant Expenditures

Finding 4           Two 1994 LGIs Claimed Ineligible Expenses

                    At the 2 1994 LGIs we visited, we reviewed all 18 FY 2003 through FY 2005
                    grants totaling $1,544,875 that were awarded to the 2 institutions. We did not
                    find any material noncompliance with grant provisions by the two
                    1994 LGIs; however, we found that funds from three grants were spent for
                    ineligible expenses. Officials at two 1994 LGIs made various errors
                    allocating salaries to projects, charging expenditures to grants that should
                    have been closed out, or using funds for purposes outside the grant
                    agreement. As a result, we identified ineligible or unsupported expenses
                    totaling $76,359 of the $1,544,875 (or about 5 percent).

                    Sinte Gleska University (SGU)

                    At SGU, we identified a total of $52,470 of $632,275 we reviewed in grant
                    funds was used for questionable purposes as detailed below (see exhibit A).

                    SGU received a FY 2004 equity grant intended to develop a health and
                    wellness curriculum to teach students basic nutrition so they could educate
                    the reservation community concerning proper diet and healthy lifestyles. Of
                    the $52,470 awarded for this nutrition program, however, $45,790 was used
                    to fund SGU’s bison ranch program, which allows students to raise bison and
                    sell bison meat. Although the bison ranch received an equity grant in
                    FY 2003, the FY 2004 grant was not intended to fund the ranch. Nonetheless,
                    FY 2004 funds were used to continue the older project.

                    When we spoke to SGU’s Chief Financial Officer about how this problem
                    occurred, she explained that the university was changing its accounting
                    software and that, consequently, the change in the bison ranch’s funding
                    source was not recorded. Without this change, charges for the ranch were
                    improperly allocated to the FY 2004 equity grant. She further explained that
                    there were delays in implementing the health and wellness curriculum and
                    that any work that was done was charged to other Government grants.

                    The remaining $6,680 of the $52,470 FY 2004 equity grant was drawn down
                    in March and May of FY 2006. Since this grant had already expired in
                    FY 2005 and grant funds had never been used for the approved project, this
                    drawdown was improper. During our audit, we advised 1994 LGI officials
                    that we would recommend that the remaining balance of $6,680 be
                    deobligated. However, SGU subsequently drew down the remaining balance
                    before our recommendation could be made. CSREES has less control over
                    how these funds are used (see Finding 3 regarding the need to close out
                    grants and deobligate excess funds).

USDA/OIG-A/13011-3-At                                                                    Page 12
                   Fond du Lac Tribal and Community College (FDLTCC)

                   At FDLTCC, we identified a total of $23,889 of $912,600 in grant funds was
                   used for unsupported purposes as detailed below (see exhibit A).

                   We found that FDLTCC was charging salaries and benefits to grant projects
                   when employees were not working directly on those projects. For instance,
                   FDLTCC paid two staff members for working on the 1994 LGI’s
                   FY 2003 and FY 2004 equity grants although the employees were also
                   teaching classes and could not have worked all the time they charged to the
                   grant program. We determined that FDLTCC had charged $11,350 for the
                   time these employees’ were teaching, instead of working directly on grant
                   projects. Additionally, the institution unintentionally charged $161 in student
                   salaries to a CSREES grant (a 2003 Soil Mapping research grant) although
                   the student was working on a different project.

                   Since both of these errors were made when FDLTCC allocated employee
                   costs to grants, we asked officials how they estimate the time employees
                   devote to each project. FDLTCC officials explained that faculty salaries were
                   paid out of general funds and costs were later allocated to the various
                   CSREES grants. Rather than determining how much actual time was spent on
                   each approved project, FDLTCC officials assumed that all time unaccounted
                   for was used for grant projects. We concluded that this was an unsupported
                   method for allocating time and that it may result in grants being over or under
                   charged.

                   Finally, we found that FDLTCC charged $12,378 in equipment costs to its
                   Environmental Science Delivery Project—a FY 2003 equity grant at the end
                   of the grant period. FDLTCC officials could not provide supporting
                   documentation for these charges or explain how these charges benefited the
                   program nor could they show us the equipment that was purchased.

                   We concluded that, unless CSREES improves its oversight of grants awarded
                   to 1994 LGIs (as discussed in section 1), similar problems will result in
                   1994 LGIs not complying with the terms of their grant agreements and using
                   funds for purposes other than those for which their grants are intended.

Recommendation 7

                   Recover from SGU $52,470 in questioned costs.

Agency Response    In its August 13, 2007, response, CSREES stated the following.

                        CSREES concurs. CSREES will bill SGU $52,470 for questioned
                        costs by September 30, 2007, and will recover funds by
                        December 31, 2007.
USDA/OIG-A/13011-3-At                                                                    Page 13
OIG Position       We agree with the corrective action proposed by CSREES; however, to reach
                   management decision CSREES needs to provide us with a copy of a bill for
                   collection of $52,470 for SGU and support that the amount has been entered
                   as a receivable on the agency’s accounting records.

Recommendation 8

                   Recover from FDLTCC $23,889 in unsupported costs.

Agency Response    In its August 13, 2007, response, CSREES stated the following.

                        CSREES concurs. CSREES will bill FDLTCC $23,889 in
                        unsupported costs by September 30, 2007, and will recover funds
                        by December 31, 2007.

OIG Position       We agree with the corrective action proposed by CSREES; however, to reach
                   management decision CSREES needs to provide us with a copy of a bill for
                   collection of $23,889 for FDLTCC and support that the amount has been
                   entered as a receivable on the agency’s accounting records.




USDA/OIG-A/13011-3-At                                                                Page 14
Scope and Methodology
                   Our review was performed at the CSREES national office in Washington,
                   D.C., and at two 1994 LGIs: FDLTCC in Cloquet, Minnesota, and SGU in
                   Rosebud, South Dakota. Thirty-three 1994 LGIs received 325 grants totaling
                   $24,281,000 from FY 2003 through FY 2005. We reviewed grant
                   agreements, planning documents, performance reports, and financial reports
                   for all 33 1994 LGIs. Also, to determine if CSREES was properly closing out
                   grants that had been expired, we reviewed 562 grants totaling
                   $30,375,073 that had expired prior to October 1, 2004.

                   We judgmentally selected two 1994 LGIs for review. Specifically we
                   selected FDLTCC because it had received more grant funds than any other
                   1994 LGI (10 grants for $912,600) from FY 2003 through FY 2005 and had
                   received a large amount in research grants ($362,201) during this period.
                   Also we selected SGU because it was a 4-year institution and had received an
                   adverse audit opinion (because of the university’s failure to allow for
                   inventory observation, inadequacy of records and failure to depreciate assets)
                   for FY 2003. SGU received eight grants for a total of $632,275 from
                   FY 2003 through FY 2005. In total, we reviewed 18 grants to these
                   2 1994 LGIs totaling $1,544,875, from FY 2003 through FY 2005. We
                   conducted our audit from January to August 2006.

                   To accomplish our objectives, we:

                   •    Reviewed regulations, policies, and procedures governing program costs.

                   •    Reviewed external and internal audit reports, CSREES reports, and grant
                        performance reports.

                   •    Reviewed grant agreements and planning documents, strategic plans,
                        program funding, and financial reports.

                   •    Interviewed CSREES and 1994 LGI officials to determine what controls
                        are used to monitor program costs.

                   •    Reviewed audits performed under the Single Audit Act to identify issues
                        concerning the use of program funds.

                   •    Reviewed 1994 LGIs’ accounting and payroll records to verify the
                        accuracy and allowability of charges reported to CSREES.

                   •    Reviewed 1994 LGIs’ grant files and outcomes reports, and interviewed
                        project directors to determine results achieved by CSREES programs.

USDA/OIG-A/13011-3-At                                                                   Page 15
                   •    Interviewed branch chiefs and staff employees from Policy Oversight
                        Branch, Funds Management Branch, and Award Management Branch to
                        determine results achieved by CSREES programs.

                   This audit was performed in accordance with generally accepted
                   government auditing standards.




USDA/OIG-A/13011-3-At                                                              Page 16
Exhibit A – Summary of Monetary Results
                                                               Exhibit A - Page 1 of 1




FINDING   RECOMMENDATION    DESCRIPTION          AMOUNT       CATEGORY
  NO.          NO.
   3            6            Expired Grants      $874,986   Funds to Be Put to
                                 Funds                         Better Use-
                                                              Deobligations
   4                7      Ineligible Expenses   $52,470    Questioned Costs,
                                   SGU                          Recovery
                                                             Recommended
   4                8        Unsupported         $23,889    Unsupported Costs,
                           Expenses FDLTCC                      Recovery
                                                             Recommended
                                        Total    $951,345




USDA/OIG-A/13011-3-At                                                      Page 17
Exhibit B – 1994 LGI Expired Grants With Unliquidated Balances
                                                                                 Exhibit B – Page 1 of 1


                                                                         Expiration
                  College                           Grant Number           Date          Amount

Chief Dull Knife                               2001-38424-10253          9/30/2004         $36,266.70
Chief Dull Knife                               2003-38421-36913          8/31/2004           4,655.00
Chief Dull Knife                               2001-47002-01230          8/1/2003           13,534.70
Crownpoint Institute of Technology             2001-38421-16919          8/31/2002          51,619.00
Crownpoint Institute of Technology             2003-38421-36919          8/31/2004             849.69
Crownpoint Institute of Technology             99-47002-0729 (FY 2001)   9/14/2004          15,350.62
Crownpoint Institute of Technology             99-47002-0729 (FY 2002)   9/14/2004          84,764.00
Dine College                                   2003-47002-01624          9/30/2004          12,991.43
D-Q University                                 2002-38421-26926          8/31/2004           2,800.00
D-Q University                                 2003-38421-36926          9/14/2004           4,195.34
Fond du Lac Tribal and Community College       99-47002-0760             9/14/2003          10,963.97
Fort Berthold Community College                2003-51200-01664          8/14/2004           7,572.12
Haskell Indian Nations University              2003-47002-01676          8/31/2004          85,000.00
Haskell Indian Nations University              99-47002-0824 (FY 2001)   9/14/2003          85,000.00
Haskell Indian Nations University              99-47002-0824 (FY 2002)   9/14/2003          85,000.00
Institute of American Indian Arts              XX-AIEF-0-6901            9/30/2000          41,189.00
Lac Courte Oreilles Ojibwa Community College   2002-38421-26921          9/14/2004             165.11
Lac Courte Oreilles Ojibwa Community College   99-47002-0738             9/14/2004          10,335.67
Little Priest Tribal College                   2003-38421-36931          8/31/2004          54,482.00
Nebraska Indian Community College              2003-38421-36924          9/14/2004          54,482.00
Nebraska Indian Community College              98-AIHE-0-8924            8/31/1999          50,000.00
Sinte Gleska University                        00-38424-9592             9/30/2003             168.00
Sisseton Wahpeton Community College            2001-38421-16928          8/31/2003          38,232.00
Sisseton Wahpeton Community College            2002-38421-26928          9/14/2004          49,968.00
Sitting Bull College                           98-AIHE-0-8923            6/30/1999          50,000.00
Southwestern Indian Polytechnic Institute      2001-38421-16900          8/31/2002           8,750.00
Southwestern Indian Polytechnic Institute      2001-38424-10389          9/14/2004              93.08
Southwestern Indian Polytechnic Institute      2002-38421-26900          9/30/2004               8.35
Southwestern Indian Polytechnic Institute      99-47002-0737             6/14/2004           1,311.47
Stone Child College                            2003-47002-01657          7/31/2004           2,500.00
United Tribes Technical College                00-38424-9671             9/14/2004          11,042.44
White Earth Tribal & Community College         2002-38421-26932          9/29/2004             107.07
White Earth Tribal & Community College         2003-38421-36932          9/14/2004           1,589.10

Total                                                                                    $874,985.86




USDA/OIG-A/13011-3-At                                                                          Page 18
Exhibit C – Agency Response
                              Exhibit C– Page 1 of 5




USDA/OIG-A/13011-3-At                    Page 19
Exhibit C – Agency Response
                              Exhibit C– Page 2 of 5




USDA/OIG-A/13011-3-At                    Page 20
Exhibit C – Agency Response
                              Exhibit C– Page 3 of 5




USDA/OIG-A/13011-3-At                    Page 21
Exhibit C – Agency Response
                              Exhibit C– Page 4 of 5




USDA/OIG-A/13011-3-At                    Page 22
Exhibit C – Agency Response
                              Exhibit C– Page 5 of 5




USDA/OIG-A/13011-3-At                    Page 23
Informational copies of this report have been distributed to:

Administrator, CSREES (5)
 ATTN: Agency Liaison Officer
Government Accountability Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division (1)
